(~IBS()N DUNN.

Gibson, Du nn & Crutcher LLP

1050 Connec ticu t Avenue , N.W.
Wast1ington, DC 20036-5306
Tel 202.955 .8500
www.gibsondunn. corn

David Debold
Direct +1 202.955.855 1
Fax +1 202 .530.9682
DDebold@gibsondunn.com

October 16, 2019
Hon . Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk

One First Street, N.E.

Washington , D.C. 20543

Re :

Puntenney, eta/., v. Iowa Utilities Board, eta/., No. 19-447

Dear Mr. Harris :
I am counsel for Dakota Access, LLC (Dakota Access), a respondent in the above-captioned
matter. The petition for a writ of certiorari in this case was docketed on October 3, 2019, and
responses to the petition are currently due November 4, 2019. Pursuant to Rules 15.3 and
30.4 of the rules of this Court, Respondent respectfully seeks an unopposed extension of time
to and including January 6, 2020 for all responses to the petition .
Dakota Access needs one additional month beyond the current deadline to respond. The
undersigned was not counsel below and needs time to become familiar with the issues and
the record . In addition, the undersigned is preparing for oral argument to be held November
5, 2019 in the Ohio Court of Appeals, and is responsible for briefing and related work in
other pending matters in October and November.
Petitioners have agreed to an extension of the deadline to respond, but with the condition that
the deadline be extended to January 6, 2020 to avoid the need for their counsel to draft a
reply while he is trying another case. Defendant-appellee below, the Iow a U tilities Board,

and intervenors-appellees below, Office of Consumer Advocate and the Main Coalition, also
agree to an extension of the deadline, including the additional time requested by petitioners.
Dakota Access therefore requests that the due date for responses to the petition be extended
to January 6, 2020.
Very truly yours,

/

~~

/5---

David Debold
cc:

Counsel for petitioners and respondents

Be ijing · Bru ssels • Century City · Dallas • Denver· Dubai • Frankfu rt· Hong Kong · Houston • Londo n • Los An ge les • Munic h
New York• Orange County • Palo Alto • Paris • San Francisco • Sao Pa ulo • Singapore • Washington , D. C.

